SPECIAL-PURPOSE FINANCIAL
     STATEMENTS FOR
FISCAL YEARS 2007 AND 2006
    Department of Transportation

    Report Number: FI-2008-012
   Date Issued: November 15, 2007
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Special-Purpose                      Date:    November 15, 2007
           Financial Statements for Fiscal
           Years 2007 and 2006, DOT
           FI-2008-012
  From:    Rebecca C. Leng                                     Reply to
                                                               Attn. of:   JA-20
           Assistant Inspector General for Financial
            and Information Technology Audits
    To:    The Secretary

           I respectfully submit the Office of Inspector General report on the U.S.
           Department of Transportation (DOT) Special-Purpose Financial Statements for
           Fiscal Years 2007 and 2006 (Attachment 1). The Special-Purpose Financial
           Statements and accompanying notes contained in the closing package
           (Attachment 2) have been prepared to comply with the requirements of the U.S.
           Department of the Treasury’s Financial Manual Volume I, Part 2, Chapter 4700.
           Their purpose is solely to provide financial information for the U.S. Department of
           the Treasury and U.S. Government Accountability Office to use in preparing and
           auditing the Financial Report of the U.S. Government. They are not intended to
           be a complete presentation of DOT’s financial statements.

           Our audit concludes that DOT’s Special-Purpose Financial Statements present
           fairly, in all material respects, the financial position of DOT as of
           September 30, 2007, and September 30, 2006, and its net costs and changes in net
           position for the years then ended in conformity with accounting principles
           generally accepted in the United States and the presentation requirements
           prescribed in the U.S. Department of the Treasury’s Financial Manual Volume I,
           Part 2, Chapter 4700.

           Last year we expressed a qualified opinion on the FY 2006 DOT’s Special-
           Purpose Financial Statements because the CIP balance presented by the Federal
           Aviation Administration (FAA) contained material errors, and FAA was not able
           to develop a reliable and supportable CIP balance. FAA has completed its review
           of the CIP balance. Accordingly, our opinion is different from that expressed in
           our previous report.
                                                                               2


We found no material weaknesses in internal controls over the financial reporting
process for the special-purpose financial statements, and our tests of compliance
with U.S. Department of the Treasury’s Financial Manual Volume I, Part 2,
Chapter 4700 requirements disclosed no instances of noncompliance that are
required to be reported under Generally Accepted Government Auditing Standards
and Office of Management and Budget Bulletin No. 07-04.

We have also attached the management representation letter for the DOT fiscal
year 2007 financial statements (Attachment 3).

We appreciate the cooperation and assistance of the Office of Financial
Management. If we can answer any questions, please call me at (202) 366-1496 or
Earl Hedges, Program Director, at (410) 962-3612.

Attachments (3)

                                           #

cc:   Office of Management and Budget, Office of Federal Financial
       Management
      Department of the Treasury, Financial Management Service
      U.S. Government Accountability Office
                                                                    Attachment 1
                                                                     Page 1 of 4




             DEPARTMENT OF TRANSPORTATION
      INSPECTOR GENERAL’S REPORT ON SPECIAL-PURPOSE
    FINANCIAL STATEMENTS FOR FISCAL YEARS 2007 AND 2006

The Department of Transportation (DOT) Office of Inspector General audited the
accompanying reclassified balance sheet as of September 30, 2007, and September
30, 2006, and the related reclassified statements of net cost and changes in net
position for the years then ended (hereinafter referred to as the special-purpose
financial statements) contained in the special-purpose closing package of DOT.
These special-purpose financial statements are the responsibility of DOT
management. Our responsibility is to express an opinion on these financial
statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted
in the United States and the standards applicable to financial audits contained in
Generally Accepted Government Auditing Standards issued by the Comptroller
General of the United States, and Office of Management and Budget (OMB)
Bulletin No. 07-04, “Audit Requirements for Federal Financial Statements.”
These standards require that we plan and perform the audit to obtain reasonable
assurance about whether the special-purpose financial statements are free of
material misstatement. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures in the special-purpose financial
statements. An audit also includes assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall
special-purpose financial statement presentation. We believe that our audit
provides a reasonable basis for our opinion.

The accompanying special-purpose financial statements and accompanying notes
(Attachment 2) contained in the special-purpose closing package have been
prepared for the purpose of complying with the requirements of the U.S.
Department of the Treasury’s Financial Manual (TFM) Volume I, Part 2, Chapter
4700. Their purpose is solely to provide financial information to the U.S.
Department of the Treasury and U.S. Government Accountability Office to use in
preparing and auditing the Financial Report of the U.S. Government and are not
                                                                                                       Attachment 1
                                                                                                        Page 2 of 4

intended to be a complete presentation of the Department of Transportation’s
financial statements. 1

In our report dated, November 17, 2006, we expressed a qualified opinion on the
FY 2006 DOT’s Special-Purpose Financial Statements because the CIP balance
presented by FAA contained material errors, and FAA was not able to develop a
reliable and supportable CIP balance prior to the issuance of the Special-Purpose
Financial Statements. Because FAA’s Property, Plant, and Equipment balance
represented 95 percent of DOT’s property as of September 30, 2006, potential
errors in FAA’s CIP balance could have had a material impact on DOT’s
consolidated financial statements. FAA has completed its review of the CIP
balance (as discussed in FR note 17) and related transactions, and as a result, DOT
restated the FY 2006 consolidated financial statements to correct the error in
accounting for FAA CIP. Accordingly, our opinion on the DOT Special-Purpose
financial statements is different from that expressed in our previous report.

In our opinion, the special-purpose financial statements referred to above present
fairly, in all material respects, the financial position of DOT as of September 30,
2007, and September 30, 2006; its net costs and changes in net position for the
years then ended in conformity with accounting principles generally accepted in
the United States; and the presentation requirements prescribed in TFM Chapter
4700.

The supplementary information required by TFM Chapter 4700 and included in
Other Data is presented for the purpose of additional analysis only and is not a
required part of the special-purpose financial statements. We have applied certain
limited procedures, consisting principally of inquiries of management regarding
methodology and presentation of this information. We also reviewed such
information for consistency with related information presented in DOT’s financial
statements. However, we did not audit this information, and, accordingly, we
express no opinion on it.

In accordance with Generally Accepted Government Auditing Standards and
OMB Bulletin No. 07-04, we have also issued a report on DOT’s consolidated

1
    The Budget and Accounting Procedures Act of 1950 allows the Secretary of the Treasury to stipulate the format and
    requirements of executive agencies in furnishing financial and operational information to the President and the
    Congress to comply with the Government Management Reform Act of 1994 (GMRA). The Secretary of the
    Treasury developed guidance in TFM Chapter 4700 to provide agencies with instructions to meet the requirements of
    GMRA. TFM Chapter 4700 requires agencies to reclassify all items and amounts on the comparative audited
    financial statements to the closing statement financial statements, list closing package line item amounts identified as
    Federal by trading partner and amount, report footnotes required by Balance Sheet line items and other footnotes
    required in the Financial Report of the U.S. Government, and disclose other information not contained in the primary
    Financial Report of the U.S. Government financial statement and footnotes required to meet generally accepted
    accounting principles requirements.
                                                                                        Attachment 1
                                                                                         Page 3 of 4

financial statements for fiscal years 2007 and 2006, which included our reports on
DOT’s internal controls over financial reporting and its compliance with certain
provisions of laws and regulations. 2 These reports are an integral part of the audit
of general-purpose financial statement reporting performed in accordance with
Generally Accepted Government Auditing Standards and OMB Bulletin
No. 07-04, and should be read in conjunction with this report in considering the
results of our audit.

In planning and performing our audit of the special-purpose financial statements,
we also considered DOT’s internal controls over the financial reporting process
for the special-purpose financial statements and compliance with TFM Chapter
4700. Management is responsible for establishing and maintaining internal
control over financial reporting, including Other Data, and for complying with
laws and regulations, including the requirements of TFM Chapter 4700.

Our consideration of internal control over the financial reporting process for the
special-purpose financial statements would not necessarily disclose all matters in
the internal control over the financial reporting process that might be significant
deficiencies. Under standards issued by the American Institute of Certified Public
Accountants, significant deficiencies are deficiencies in internal control, or a
combination of deficiencies, that adversely affects DOT’s ability to initiate,
authorize, record, process, or report financial data reliably and in accordance with
accounting principles generally accepted in the United States of America such that
there is more than a remote likelihood that a misstatement of the special-purpose
financial statements being audited that is more than inconsequential will not be
prevented or detected. Material weaknesses are significant deficiencies or a
combination of significant deficiencies, that result in a more than remote
likelihood that material misstatements in relation to the special-purpose financial
statements being audited will not be prevented or detected.

We found no material weaknesses in internal control over the financial reporting
process for the special-purpose financial statements, and our tests of compliance
with TFM Chapter 4700 requirements disclosed no instances of noncompliance
that are required to be reported under Generally Accepted Government Auditing
Standards or OMB Bulletin No. 07-04. However, providing an opinion on
(1) internal controls over the special-purpose financial statement reporting process
and (2) compliance with TFM Chapter 4700 requirements were not objectives of
our audit of the special-purpose financial statements, and, accordingly, we do not
express any such opinion.



2
    DOT Report on Consolidated Financial Statements for Fiscal Years 2007 and 2006, Report No. FI-2008-011
    November 13, 2007.
                                                                   Attachment 1
                                                                    Page 4 of 4

This report is intended solely for the information and use of DOT, the Department
of the Treasury, the Office of Management and Budget, and the Government
Accountability Office in connection with the preparation and audit of the
Financial Report of the U.S. Government and is not intended to be and should not
be used by anyone other than these specified parties.




Rebecca C. Leng
Assistant Inspector General for Financial
 and Information Technology Audits
